                             TESTIMONY OF

                       DONALD A. GAMBATESA,

                         INSPECTOR GENERAL,

         U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                                  BEFORE THE

 SUBCOMMITTEE ON NATIONAL SECURITY, HOMELAND DEFENSE,
            AND FOREIGN OPERATIONS OF THE
 HOUSE COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM




                 “USAID: FOLLOWING THE MONEY”




                              MAY 11, 2011


      Chairman Chaffetz and Ranking Member Tierney, I am pleased to

appear before you to testify on behalf of the Office of Inspector General

(OIG) for the U.S. Agency for International Development (USAID). Today,

I would like to share information about our efforts to promote accountability

in foreign assistance programs.
      OIG was established in 1980 with a mandate to combat waste, fraud,

and abuse and promote economy, efficiency, and effectiveness in USAID

programs and activities. Our oversight mandate spans the full portfolio of

USAID programs and activities, and extends across more than one hundred

countries. To execute this mission, we have hired and retained 240 highly-

skilled professionals who operate out of our 11 offices in Washington and

around the globe. We draw on the skills and expertise of both Foreign

Service and Civil Service direct-hire personnel as well as Foreign Service

Nationals. This worldwide presence enables us to focus on oversight of

Agency programs where they operate.

      Our core oversight activities include the conduct and supervision of

financial audits, and the execution of performance audits and reviews. We

complement these efforts with investigations into allegations of criminal,

civil, and administrative violations; and fraud awareness training.

      We work in conjunction with USAID and its implementing partners to

provide financial audit coverage of Agency programs.             We examine

USAID’s financial statements and report on associated internal controls and

legal and regulatory compliance every fiscal year. We supplement these

Agency-specific financial audits with audits of recipients of USAID funds.

USAID provides for financial audits to ensure that funds that the Agency



                                     -2-
provides to external entities are allowable, reasonable, and allocable.

USAID determines when to schedule financial audits of its contractors based

on assessments of risk and sets requirements for financial audits of grantees.

In particular, U.S.-based grantees that expend $500,000 or more annually in

federal funds must submit to organization-wide financial audits every year.

Annual financial audits are also required of all foreign non-profit

organizations and host government entities that expend $300,000 or more in

Agency funds in a given year.         OIG provides oversight of these audit

activities by defining financial audit standards, determining the eligibility of

local public accounting firms to perform financial audits of USAID funds,

ensuring that audits are conducted in accordance with appropriate quality

standards, and reviewing and approving resulting reports prior to issuance.

When we receive information that indicates more intensive financial

oversight of a project or entity may be warranted, we work with Agency

officials to contract for additional financial audit assistance. Last fiscal year,

OIG presided over 410 USAID-related financial audits.              These audits

covered $8.9 billion in funds and questioned more than $36 million in costs.

USAID, in turn, reported that it sustained $213 million in previously

identified questioned costs during FY 2010.




                                      -3-
      We also conduct audits and reviews with a focus on USAID

performance. Our resulting reports address questions relating to program

compliance and implementation, but emphasize whether USAID activities

are achieving results. When our findings warrant corrective action on the

Agency’s part, we make recommendations for program improvement. In

fiscal year (FY) 2010, we issued 66 performance audits and reviews with a

total of 423 recommendations for USAID action.

      In addition to our audit-related activities, we have a significant

investigative portfolio. Our criminal investigators have full law enforcement

authority and investigate allegations of waste, fraud, and abuse of U.S.

foreign assistance funds and employee misconduct.        We currently have

approximately 200 open investigations. Last fiscal year, our investigative

work yielded 12 convictions, 90 administrative actions (such as contract or

employee terminations), and $104 million in savings and recoveries (from

sources like criminal case restitution payments, civil judgments, and bills of

collection).

      While our core activities generally follow Agency spending and

activity, we also try to be as forward leaning as possible in cultivating

accountability in USAID programs.           To increase fraud awareness,

mitigation, and reporting, OIG delivers fraud awareness briefings to USAID



                                    -4-
personnel, contractors, grantees, and host country representatives. Last year,

we provided such briefings to more than 3,400 attendees worldwide. In

addition, we conduct training for overseas USAID staff, contractors, and

grantees to increase awareness of and compliance with U.S. Government

cost principles and financial audit and accountability requirements. Last

year, we provided this training to 460 attendees.

      These oversight and outreach activities provide us with useful

information about Agency management systems, controls, and performance.

We share concerns we have about USAID’s overall standing in these areas

in briefings with the Administrator and senior managers and in our annual

memorandum to the Administrator on management and performance

challenges. I would like to briefly highlight for you some of our related

observations about USAID’s accountability posture.

      To begin with, it is worth noting that Agency managers have a

positive track record in responding to OIG recommendations.           USAID

developed appropriate plans to address every one of the recommendations

we made last year.

      With respect to USAID’s financial management, we have identified

room for improvement but generally find its efforts in this area to be

consistent with accepted U.S. Government practice. USAID has received an



                                     -5-
unqualified financial opinion on its financial statements for 8 consecutive

years and continues to make progress in addressing its one associated

material weakness. Also to its credit in this area, USAID has responded to

the increased risk of funding foreign entities by applying more stringent

financial audit requirements to foreign recipients than the Office of

Management and Budget requires for U.S.-based recipients.

      Much of USAID’s funding is channeled through contracts, grants, and

cooperative agreements to external entities, so it is vital that the Agency

maintain effective assistance and acquisition systems. To help plan, execute,

and manage its procurement actions, USAID developed a new acquisition

and assistance system and is now in the process of implementing it

worldwide. We have been consulting with the Agency to help identify

potential system weaknesses.

      USAID is currently in the process of outlining and instituting a series

of procurement reforms that are intended to increase competition, strengthen

the capacity of local organizations, and expand partnerships with a larger

number of nongovernmental organizations. These reforms are likely to have

a significant effect on the Agency’s ability to account for and manage its

future awards. In the meantime, USAID continues to try to make progress in

ensuring that it employs appropriate procurement instruments by improving



                                    -6-
its use of performance-based contracts and limiting reliance on poorly

structured cost-reimbursement contracts.

      Human capital is an important component of any effective acquisition

and assistance system. Regrettably, USAID workforce planning analyses

have identified a shortfall in mission-critical contract specialists. USAID

missions in critical priority countries have reported an especially acute need

for acquisition and assistance professionals. USAID is working to address

these shortfalls through hiring targets.

      In order to be accountable to taxpayers, Federal agencies need to be

able to establish that they are delivering results. USAID’s large and diverse

portfolio of foreign assistance programs poses a challenge for the Agency in

properly managing for results. Our work has frequently identified planning

weaknesses and potential improvements in documenting, monitoring,

evaluating, and reporting on program performance.         For example, OIG

audits have often identified inaccurate or unsupported results. In fact, more

than a third of the performance audits and reviews we issued in FY 2010

noted that data reported by USAID operating units or their partners were

misstated, unsupported, or not validated. As a result, policymakers too often

lack access to the quality of data they need to make fully informed decisions

about related programs.



                                      -7-
      USAID has recently taken steps to try to improve its performance

management by strengthening its monitoring and evaluation program and

working to build more of a results-orientation into its planning processes.

Last year, the Agency established organizational units to advance these

initiatives. Since then, it has developed more rigorous policies and guidance

relating to data collection, data quality, performance indicators, and

evaluations. Meanwhile, it has also started to pursue a more structured

approach to country-level development planning that requires more upfront

attention to prioritizing activities to maximize impact; clear articulation of

objectives that programs are intended to address; and more detailed

information on the approach the Agency plans to take to meet these

objectives.

      USAID must also strive to ensure that program benefits are sustained

once funding ends. After all, USAID aims to create conditions that will

eliminate the need for development assistance in the future. Although our

performance audits and reviews typically focus on ongoing assistance

efforts, about one in seven of our reports last year identified issues with

future project sustainability.

      To help ensure that hard-won development gains are sustained,

USAID is currently working to increase its use of host-country systems and



                                    -8-
partners. By utilizing, rather than bypassing, local systems and partners, the

Agency believes that it can invest in other countries’ long-term capacity to

manage and address their own development needs. To this end, USAID is

planning to increase the share of program funds it uses to provide direct

support of host governments, local nonprofit organizations, and private

businesses abroad. However, the increased use of host country systems will

also increase risks to program integrity and accountability.

         Many of the accountability challenges USAID faces are intensified in

critical priority countries and disaster areas. Monitoring the progress of

USAID programs in Afghanistan, Haiti, Iraq, and Pakistan is often hampered

by security- and infrastructure-related travel restrictions and frequent staff

rotations. In addition, widespread corruption, weak government institutions,

and diminished rule of law frequently undercut accountability for program

funds.

         OIG is taking a number of steps in response to USAID challenges and

initiatives to enhance accountability for foreign assistance funds. To begin

with, we employ a more intensive oversight program in critical priority

countries and disaster areas where risks to Federal funds are greatest. Rather

than providing oversight on a regional basis as we do elsewhere in the

world, we concentrate staff in these countries and focus our staff efforts



                                     -9-
exclusively on oversight of USAID activities there.         Our personnel

commitment to oversight in these countries is demonstrated by the fact that

our largest overseas offices are located in Afghanistan and Pakistan. We use

this expanded on-the-ground presence to provide greater audit and

investigative coverage, engage in increased outreach on fraud awareness,

and do more to advertise hotline reporting. When we receive information

that a program requires enhanced financial scrutiny, we conduct concurrent

financial audits of project costs so that we can identify questionable

expenditures and control weaknesses as soon as possible. In these settings,

we also redouble our monitoring of higher-risk practices such as cash

transactions and disbursements. On the investigative front, we leverage

external resources by reinforcing internal compliance systems of

implementing partners, coordinating with other U.S. law enforcement

authorities in task force settings, and working with local officials to

investigate and prosecute crimes.

      In response to the Agency’s efforts to increase its use of host-

government systems, we are doing more to work with host-country

accounting firms and Supreme Audit Institutions to build their capacity to

conduct financial audits that meet U.S. Government auditing standards and

guidelines. We continue to monitor USAID procurement reforms that are



                                    - 10 -
intended to increase the use of host-country systems and have consulted with

Agency officials on attendant risks and mitigating strategies. To provide

greater assurance that foreign government ministries that ultimately receive

direct U.S. assistance have needed systems and controls, OIG has also

reviewed USAID ministry assessments and recommended improvements in

the assessment process. In Pakistan, where USAID is expanding direct

government assistance programs, we are working to ensure that the general

population has access to information in local languages on how to report

fraud, waste, and abuse. To further enhance oversight in Pakistan, we have

also trained our investigative personnel on local procurement laws so that

they can work more effectively with local law enforcement and prosecutors

to respond to related allegations.

      We are also planning future efforts to study aspects of the Agency’s

overall accountability posture.      Our office plans, for example, a post-

implementation review of USAID’s new acquisition and assistance system

to ensure that it is meeting system requirements and user needs. We also

plan to examine the extent to which USAID’s operating units have made

progress in meeting the requirements outlined in the Agency’s new

evaluation policy and guidance.




                                     - 11 -
       Finally, because most of the Agency’s work is done by external

recipients, we have stepped up efforts to ensure that individuals and firms

that have been found to be unfit to receive U.S. funds do not continue to

receive grants and contracts. To that end, we have been working more

closely with Agency suspension and debarment officials to apply these tools

in all cases in which they are called for. USAID has demonstrated increased

commitment to suspension and debarment by establishing a Suspension and

Debarment Task Force chaired by the Deputy Administrator and staffing up

a Compliance and Oversight of Partner Performance Division that supports

suspension and debarment actions.      These efforts have yielded tangible

results, as USAID has taken 48 suspension and debarment actions over the

last year and recently suspended one of its largest implementing partners in

response to OIG evidence of serious corporate misconduct, mismanagement,

and a lack of internal controls that raised grave concerns about the firm’s

integrity.

       Proper stewardship of U.S. tax dollars requires a solid accountability

framework. We are committed to working with USAID and its counterparts

to ensure that such a framework is in place so that we can provide taxpayers

greater assurance that foreign assistance funds are administered with

integrity.



                                    - 12 -
      Thank you for this opportunity to address the Subcommittee. We

appreciate your interest in our work and look forward to learning more about

your interests and priorities. I would be happy to answer any questions you

may have at this time.




                                   - 13 -
